         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Followup Audit Report




       Progress Made in Improving Use of
       Federal Supply Schedule Orders,
       but More Action Needed

       Report No. 2007-P-00037

       September 20, 2007
Report Contributors:
                                              Iantha Maness
                                              Nancy Dao
                                              John Trefry
                                              Doug LaTessa




Abbreviations

CMM          Contracts Management Manual
FAR          Federal Acquisition Regulation
FSS          Federal Supply Schedule
EPA          U.S. Environmental Protection Agency
GSA          General Services Administration
IGCE         Independent Government Cost Estimate
OAM          Office of Acquisition Management
OIG          Office of Inspector General
                       U.S. Environmental Protection Agency                                             2007-P-00037

                                                                                                   September 20, 2007

                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review             Progress Made in Improving Use of Federal Supply
The objectives of our audit
                                   Schedule Orders, but More Action Needed
were to determine whether the
U.S. Environmental Protection       What We Found
Agency (EPA) implemented
the agreed-upon corrective         EPA implemented all but one of the recommendations in our original report. As a
actions from a previous Office     result of this previous report, EPA:
of Inspector General (OIG)
report on Federal Supply               •	 Published guidance in its Contract Management Manual for issuing orders
Schedule (FSS) orders. We                 against the FSS.
also sought to determine
whether EPA is following               •	 Provided training to its contracting officers on the use of the General
established procedures in                 Services Administration’s Schedule, market research, and Performance-
awarding FSS orders.                      Based Service Acquisitions.
                                       •	 Is acquiring a new, commercial off-the-shelf Federal acquisition system
Background                                for Agency-wide use over the Internet that will replace the Agency’s
                                          current systems.
In September 2003, we issued
Audit Report No. 2003-P-           Regarding the one recommendation not implemented, EPA did not provide
00015, EPA Can Improve Use         samples of sole source justifications to program offices as agreed. Agency
of Federal Supply Schedules        officials said this occurred due technology challenges in sharing files. However,
When Procuring Services.           posting justifications on EPA’s intranet should resolve the issue.
EPA was in general agreement
with the report, and agreed to     During our review, we noted other areas that require attention. By ensuring that
implement several                  adequate market research is conducted, EPA can increase competition. Also,
recommendations to improve         Independent Government Cost Estimates need improvement to ensure EPA does
the process for ordering from      not overpay for services and supplies acquired via the FSS.
the FSS. Ordering agencies,
such as EPA, can issue orders       What We Recommend
directly to contractors that are
on the schedules approved by       We recommend that the Assistant Administrator for Administration and Resources
the General Services               Management provide examples on EPA’s intranet of adequate justifications for
Administration.                    limiting competition. We also recommend that the Assistant Administrator
                                   emphasize Quality Assessment Plan requirements for evaluating: the effectiveness
                                   of market research, justifications for limiting competition, development of
For further information,
contact our Office of              Independent Government Cost Estimates, and the use of the FSS order checklist.
Congressional and Public           Further, we recommend that Office of Acquisition Management market the
Liaison at (202) 566-2391.         benefits of online procurement tools to contracting staff. EPA agreed with all of
                                   our recommendations and plans to implement the corrective measures we
To view the full report,
click on the following link:
                                   proposed.
www.epa.gov/oig/reports/2007/
20070920-2007-P-00037.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




                                       September 20, 2007

MEMORANDUM

SUBJECT:	 Progress Made in Improving Use of Federal Supply Schedule
          Orders, but More Action Needed
          Report No. 2007-P-00037


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Luis A. Luna
               Assistant Administrator
               Office of Administration and Resources Management


This is our final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This audit report contains findings that
describe the problems the OIG has identified and corrective actions the OIG recommends. This
audit report represents the opinion of the OIG and the findings contained in this report do not
necessarily represent the final EPA position. Final determinations on matters in this audit report
will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $181,758.

If you or your staff have any questions regarding this report, please contact me at 202-566-0899
or heist.melissa@epa.gov, or Carl Jannetti at 215-814-2350 or jannetti.carl@epa.gov.
                     Progress Made in Improving Use of Federal Supply Schedule Orders,
                                          but More Action Needed




                                         Table of Contents 

Purpose ................................................................................................................................   1


Background ..........................................................................................................................       1


Noteworthy Achievements..................................................................................................                  2


Scope and Methodology .....................................................................................................                2


Results of Review ................................................................................................................         3


           Improved Market Research Provides More Competition............................................                                  3

           IGCEs Need Improvement .........................................................................................                4

           Other Matters .............................................................................................................     4


Recommendations...............................................................................................................             5


Agency Response and OIG Evaluation..............................................................................                           5


Status of Recommendations and Potential Monetary Benefits.......................................                                           6




Appendices
     A       OIG Prior Recommendations and
             Office of Acquisition Management Corrective Actions .....................................                                     7

     B       Agency Response to Draft Report .....................................................................                         9

     C       Distribution ...........................................................................................................      11
Purpose
The objectives of our audit were to determine whether the U.S. Environmental Protection
Agency (EPA) implemented the agreed-upon corrective actions from a previous Office of
Inspector General (OIG) report on Federal Supply Schedule (FSS) orders. We also sought to
determine whether the Agency is following established procedures in awarding FSS orders.

Background
The FSS program, directed and managed by the General Services Administration (GSA),
provides Federal agencies with a simplified process for obtaining commonly used commercial
supplies and services at prices associated with volume buying. GSA issues FSSs with the
information necessary for placing orders with contractors. Ordering agencies issue orders
directly to these contractors for supplies and services.

On September 29, 2003, we issued Audit Report No. 2003-P-00015, EPA Can Improve Use of
Federal Supply Schedules When Procuring Services. This report discussed the need to improve
EPA’s procedures for initiating FSS orders. Specifically, we noted that:

    •	 EPA staff could increase competition for FSS awards by seeking and obtaining
       competitive quotes. Lack of sufficient quotes was attributed to insufficient sole source
       justifications, ineffective planning, rushed procurements, insufficient market research,
       and limited time offered to potential sources to submit quotes.

    •	 EPA awarded FSS orders without always complying with established policies,
       procedures, and regulations. For example, Statements of Work were not always
       performance-based, requests for quote lacked required evaluation factors, Independent
       Government Cost Estimates lacked necessary information, and price reductions were not
       sought from contractors.

EPA was in general agreement with the report and agreed to implement many of the
recommendations. Those recommendations and a discussion of corrective actions taken are in
Appendix A.

Federal Acquisition Regulation (FAR) Subpart 8.4 describes Government policy for FSS orders.
Since our report, FAR Subpart 8.4 has been amended twice regarding competition. In June
2004, the FAR was amended to incorporate revised ordering procedures for orders against the
FSS, including new documentation requirements for justifying sole source orders. In July 2005,
the FAR was amended again to clarify competition requirements for FSS orders.

EPA’s Office of Administration and Resources Management, which includes the Office of
Acquisition Management (OAM), is responsible for policies, procedures, operations, and support
of the Agency’s procurement and contracts management program. For the cases we reviewed,
EPA project officers submitted requests for FSS orders to Office of Administration and
Resources Management contracting officers, who issued the orders.



                                               1

Noteworthy Achievements
EPA implemented all but one of the recommendations in our original report. As a result of this
previous report:

   •	 In September 2005, EPA published procedures in its Contracts Management Manual for
      issuing orders against the FSS. A new chapter in the manual addresses both project
      officer and contracting officer responsibilities for acquisition planning, conducting
      market research, competing FSS orders, requiring the use of an FSS order checklist, and
      preparing sole source justifications.

   •	 EPA has provided training to its contracting officers on GSA schedule training, market
      research, and Performance-Based Service Acquisitions.

   •	 EPA is in the process of acquiring a new commercial off-the-shelf Federal acquisition
      system for Agency-wide use over the Internet to replace the Agency’s current systems.

We noted a best practice regarding EPA’s use of an online marketplace to streamline the
purchase of simple commodities. On September 20, 2006, EPA awarded a $15,300 FSS order
(EP06H002856) for laser printers, scanners, and associated maintenance agreements. EPA used
FedBid for this purchase – an online marketplace for the Federal Government acquisition of
commercial items. Using FedBid, EPA notified 1,584 sellers of its needs. Three sellers
submitted bids. EPA awarded the order to the lowest bidder, and saved almost $2,200, or
12 percent. The Office of Management and Budget encourages agencies to use online
procurement services for acquisition of commercial items. Use of these services could also
result in administrative savings.

Scope and Methodology
We performed this audit from May to July 2007 in accordance                 Table 1:
with generally accepted government auditing standards. From            Sampled FSS Orders
April 1 through September 30, 2006, EPA initiated 517 GSA                  EP06H001923
orders, valued at about $89 million. From these orders, we                 EP06W000379
                                                                           EP06H002856
selected a random sample of 10 FSS orders, valued at $680,000,             EP06H001419
for this review. We visited EPA Headquarters in Washington,                EP07H000622 *
DC, and reviewed the contract files for the orders sampled. We             EP06H001489
                                                                           EP06H001665
also interviewed contracting and project officers, as well as the          EP06H002266
EPA Competition Advocate.                                                  EP06H002848
                                                                           EP06H001429
In planning and performing our audit, we reviewed EPA’s              Source: EPA’s OAM
implementation of recommendations from our previous audit.           * Although this order was
We also reviewed management controls related to our objectives,      included in the universe
                                                                     awarded between April 1 and
including the Agency’s guidance for awarding FSS orders.             September 30, 2006, upon
Further, we reviewed the Office of Administration and Resources      further review we determined it
                                                                     was awarded in January 2007.
Management’s Fiscal Year 2006 Assurance Letter and Integrity         However, we kept it in our
Act Report. In addition, we reviewed Quality Assessment Plans        sample.




                                                2

and the results of the Quality Assessment Plan Oversight Reviews for both the Headquarters
Procurement Operations Division and Superfund/Resource Conservation and Recovery Act
Regional Procurement Operations Division.

We examined FAR Part 5 - Publicizing Contract Actions, Part 7 - Acquisition Planning,
Subpart 8.4 - Federal Supply Schedules, Part 10 - Market Research, and Part 11 - Describing
Agency Needs. We also examined the GSA Ordering Procedures for FSS Orders, Federal
Acquisition Circular Number 2005-05, and other policy documents related to our review.

Results of Review
EPA implemented all but one recommendation from our previous report. For the
recommendation not implemented, EPA had agreed to provide samples of sole source
justifications to program offices. EPA officials informed us they were going to provide
examples of those justifications on OAM’s e-library. However, this initiative did not occur
because of technology challenges – the Agency was unable to share files across OAM locations.
We recommend these justifications be posted on EPA’s intranet.

In addition, during our review, we noted a few areas that require more attention. Details follow.

Improved Market Research Provides More Competition

In its simplest form, market research is information gathering. FAR Part 10 provides that
agencies must conduct market research before developing new requirements, to determine if
there are sources capable of satisfying the agency’s requirements and if commercial items are
available. FAR Subpart 8.4 allows restricted competition when only one source is available
because of the unique or specialized nature of the work, or when an urgent and compelling need
exists. Of the four FSS orders in our sample where competition was limited, we found that
market research for two was insufficient.

   •	 One order was to purchase additional furniture and to disassemble, transport, and
      reassemble existing furniture at a new location. The furniture was “systems” furniture
      that needed to be purchased and installed by one of the manufacturer’s dealerships. This
      manufacturer had authorized dealerships throughout the country. The project officer told
      us she called the manufacturer and asked for a dealership that could work with the
      Federal Government. She said she did not recall asking for more than one dealer, and
      stated her standard practice is to contact only one potential vendor. Our own market
      research identified seven dealers (similar to the vendor selected) authorized to work with
      the Federal Government within 50 miles; four were within 13 miles of the new location.
      However, the justification for limiting competition had stated that the awardee was the
      only vendor qualified to provide the services needed. The contracting specialist stated he
      had accepted the project officer’s justification at face value.

   •	 Another order was to hire a firm to help EPA obtain a summer intern. The only
      indication of market research in the contract file was the project officer’s statements
      regarding positive experiences with the vendor in the past. The justification for limiting


                                                3

       competition stated that the vendor’s unique internship program added value to EPA’s
       program office through its ability to identify interns with strong academic skills and
       interest in the environmental field. However, before the program office created the
       purchase request and the contracting officer awarded the order, the project officer
       instructed the contractor to extend an offer for an internship to a named individual.
       Therefore, the project officer was inappropriately involved in pre-award decisions, since
       such decisions are only the contracting officer’s responsibility. As a result, the Office of
       Acquisition Management will need to have this unauthorized commitment ratified.

IGCEs Need Improvement

Three of the 10 orders in our sample were for complex services requiring an Independent
Government Cost Estimate (IGCE). The IGCE is to consider the level of effort and labor
categories needed to perform the specific task ordered, and determine whether the total price
proposed by a vendor is reasonable. The Government should use IGCEs to determine the best
value for dollars expended; without such estimates, the Government runs the risk of overpaying.
However, for one of the three orders in our sample, the IGCE was significantly underestimated,
while for a second the IGCE matched the vendor’s estimate almost exactly.

   •	 For one order, the program office’s cost estimate was $270,000. EPA received two
      proposals in response to its request for quote, at $286,000 and $498,500. EPA selected
      the firm with the higher price. The Government’s evaluation of the technical aspects of
      the two proposals indicated that the higher bid contained a superior approach. With
      respect to cost, the Government’s evaluation and comparison of the two offers stated:
      “On the matter of cost, the government's estimate of resources required to meet the terms
      of expertise was underestimated. However, EPA feels the added cost of the [vendor’s
      name redacted] proposal is justified based on the proposed excellent technical approach
      and expertise that this company will bring to the project.” Both the contracting officer
      and project officer said the understatement occurred because the program office was not
      familiar with the cost and rate of the highly sought after contractor staff. They also cited
      the inexperience of EPA staff in developing an IGCE for the type of service acquired.

   •	 For another order, the program office identified 10 labor categories (Senior Executive
      Consultant, Executive Consultant, Principal Consultant, etc.) in its undated IGCE with
      corresponding hours required to complete the tasks identified in the order. The only
      proposal received was from the incumbent, which included the same number of labor
      hours as EPA’s IGCE for 9 of the 10 labor categories. The difference for the tenth
      category was negligible. The EPA and vendor estimates for travel were also identical.
      A contracting officer told us that, in general, IGCEs tend to be recycled and cursory in
      nature.

Other Matters

None of the 10 orders in our sample contained an FSS order checklist. Such a checklist is
required by EPA procedures. These procedures state that the checklist will be included in the
official file as documentation of the award, and that it should be supplemented by narratives to


                                                 4

support decisions made during the award process of an FSS order. Several contracting staff were
unaware of the checklist. Six of the contract files did contain a Simplified Acquisition
Worksheet instead of the FSS order checklist designed for FSS orders.

One order for complex services was only open for 2 business days and issued late on a Friday
afternoon. EPA’s revised procedures recognize that competition can be enhanced when
solicitations are open to quotes for an adequate period. These procedures prescribe 10 business
days as the norm for solicitation periods, although simple quotes for standard supplies may
require less time while complex quotes may require more. One vendor provided the request for
quote stated it would not submit a proposal in part because of the short timeframe for responses.
The contracting officer told us the program office had an existing FSS order in place with the
vendor, and wanted to award this vendor additional work under a sole source justification. The
contracting officer said she convinced the program office to compete the new requirement, but
because the program office needed the services quickly the solicitation was kept open only
2 days.

Recommendations
While improvements were made, a few areas require more attention. We recommend that the
Assistant Administrator for the Office of Administration and Resources Management:

   1.	 Provide examples on EPA’s intranet of adequate justifications for limiting competition.

   2.	 Emphasize Quality Assessment Plan requirements for evaluating: the effectiveness of
       market research, justifications for limiting competition, development of IGCEs, and the
       use of the FSS order checklist.

   3.	 For the order to obtain an intern, ensure the unauthorized commitment entered into by the
       program office is ratified.

   4.	 Require OAM to market the benefits of online procurement tools such as FedBid.


Agency Response and OIG Evaluation
OAM concurred with all four recommendations and indicated it would post good examples of
justifications for limiting competition on its Web site. OAM also indicated it will emphasize, in
a report to be issued by September 30, 2007, Quality Assessment Plan requirements for effective
market research, justifications for limiting competition, developing IGCEs, and using the FSS
checklist. OAM plans to ratify the unauthorized commitment by October 2007, and conducted
several training sessions on Fedbid. Moreover, it will continue to promote procurement tools
such as Fedbid and e-Buy through various means. OAM’s actions taken and planned meet the
intent of our recommendations and should improve the Agency’s use of FSS orders. The
Agency’s full response is in Appendix B.




                                                5

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                         Subject                         Status1         Action Official             Date      Amount      Amount

     1        5     Provide examples on EPA’s intranet of adequate          O       Assistant Administrator,       12/31/07
                    justifications for limiting competition.                       Office of Administration and
                                                                                    Resources Management

     2        5     Emphasize Quality Assessment Plan requirements          O       Assistant Administrator,       09/30/07
                    for evaluating: the effectiveness of market                    Office of Administration and
                    research, justifications for limiting competition,              Resources Management
                    development of IGCEs, and the use of the FSS
                    order checklist.

     3        5     For the order to obtain an intern, ensure the           O       Assistant Administrator,       10/31/07
                    unauthorized commitment entered into by the                    Office of Administration and
                    program office is ratified.                                     Resources Management

     4        5     Require OAM to market the benefits of online            O       Assistant Administrator,       12/31/07
                    procurement tools such as FedBid.                              Office of Administration and
                                                                                    Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                6

                                                                                                       Appendix A

           OIG Prior Recommendations and
Office of Acquisition Management Corrective Actions1

         OIG Recommendation                                        Corrective Actions Taken
2-1       Develop and implement policies     •   Updated its Contracts Management Manual (CMM) policies and
          or guidelines to assure FSS            procedures to address FSS awards, project officer and contracting
          awards are competed to the             officer responsibilities regarding market research and Requests for
          maximum extent practicable.            Quote, and acquisition planning requirements for FSS orders.
                                             •   Developed/provided additional outreach and training on the use of
                                                 FSSs and market research to the Agency's acquisition staff.
                                             •   Mandated that all acquisition staff take GSA on-line training on recent
                                                 revisions to FAR Part 8.4.
                                             •   Had divisions and regional contracting officers review FSS awards as
                                                 part of their annual Quality Assurance Plan.
2-2       Develop and implement a            •   Revised CMM policies/procedures to (a) reflect the increased
          coordinated program office             emphasis on market research, and (b) provide general guideline for
          procurement planning strategy          soliciting more than three quotes where practicable and determining
          with Senior Resource Officials         appropriate time frames for receipt of quotes.
          to avoid rushed FSS awards         •   Trained acquisition staff on the use of FSS.
          and allow more contractors to      •   Addressed acquisition planning requirements for FSS orders by
          bid for requested services.            including all known/upcoming GSA FSS awards over $100,000 in
                                                 acquisition plan and EPA's annual acquisition forecast to the
                                                 maximum extent possible.
                                             •   Required that each OAM Division and Regional Contracting Office
                                                 shall include an activity in their Quality Assurance Plan to ensure
                                                 quality control of FSS orders.
2-3       Develop and enforce policies       •   Updated CMM policies/procedures to address the required contract
          and procedures to (a) ensure           file documentation of sole source justifications and require that a copy
          that FSS sole source awards            of all sole source justifications for FSS orders be provided to the
          are adequately justified and           Agency Competition Advocate for trend analysis purposes.
          (b) provide a format for program   •   OAM agreed that the quality of file documentation can be improved
          offices to use in documenting          and planned to post samples of quality documents, such as sole
          sole source justifications.            source justifications, on OAM’s e-library. However, this initiative did
                                                 not occur because of technology challenges (i.e., inability to share
                                                 files across OAM locations).
                                             •   OAM ensured that its Quality Assurance Plans address reviews of the
                                                 quality of file documentation for FSS orders and other acquisitions.
3-1       Provide training to emphasize      •   Provided acquisition guidance on Performance-Based Service
          FAR requirements and GSA               Acquisition and Other Alternative Contract Vehicles on OAM’s policy
          special ordering procedures.           Web page, http://intranet.epa.gov/oamintra/policy/index.htm.
                                             •   Continued to provide training on use of FSS orders and Performance-
                                                 Based Service Acquisition at its Acquisition Training Conferences.




1
    From September 29, 2003, report, EPA Can Improve Use of Federal Supply Schedules When Procuring Services


                                                           7
      OIG Recommendation                                          Corrective Actions Taken
3-2   Periodically provide Senior           •   Modified CMM policies/procedures requiring that each Division and
      Resource Officials, contracting           Regional Contracting Office shall include an activity in their Quality
      officers, and project officers with       Assurance Plan to ensure quality control of orders against FSS
      information/actions taken in              contracts.
      response to systemic or               •   Prepared a consolidated list of all best practices identified in Quality
      significant problems, and best            Assurance Plan reviews (that were published in Flash Notice and/or
      practices identified from prior           the quarterly Hot Tips publication on OAM intranet Web site).
      and current oversight reviews of
      individual Quality Assurance
      Plan implemented.
3-3   Develop and distribute                •   Updated CMM policy/procedure to include a FSS Order Checklist in
      checklists for managing the               the guidance on the use of FSS.
      processing of FSS task orders
      that ensure all FAR
      requirements and GSA special
      ordering procedures are
      followed.
3-4   Enter contractor’s past               •   Amended CMM policy/procedure to require the contracting office and
      performance appraisals for FSS            project officer to evaluate and document the contractor's performance
      orders over $100,000 in the               in the National Institutes of Health’s Contractor Performance System
      National Institutes of Health             following completion of an FSS order.
      system.                               •   Included OAM intranet links in training Web sites and the guide on
                                                using National Institutes of Health’s Contractor Performance System.
4-1   Convene a high level workgroup        •   OAM's Information Technology Service Center investigated the
      of EPA procurement and                    feasibility of expanding existing coverage to require Integrated
      information technology                    Contract Management System entry for all FSS orders.
      personnel to review the               •   Conducted a Sources Sought for information purposes only in search
      databases used to record FSS              of a commercial-off-the-shelf Federal acquisition system to replace its
      information, and develop a plan           current automated procurement systems.
      for bringing a consolidated
      system online that permits all
      users to accurately record
      information for FSS orders.
4-2   Provide training on FSS data          •   Revised CMM policy/procedure to address the importance of timely
      entry, and provide contracting            and accurate FSS data entry in the Agency's automated systems.
      officers and program office           •   Continued to provide system training, including data entry (such
      personnel with user guides,               training for data entry in the Agency’s automated systems is now
      checklists, and best practice             captured as part of on-the-job training).
      examples to re-emphasize the          •   The operational divisions performed periodic reviews and validation
      importance of complete and                of data on contract actions.
      reliable FSS data entry.
4-3   Periodically reconcile FSS data       •   Updated CMM policy/procedure to reflect the data entry requirement
      to the Integrated Financial               of all FSS orders into the Agency’s automated data systems.
      Management System and                 •   Conducted periodic exercises to ensure that automated data is
      source documents.                         reconciled to Integrated Financial Management System data/source
                                                documents; future exercises will emphasize verification of FSS data.




                                                          8

                                                                          Appendix B

              Agency Response to Draft Report


                                  September 12, 2007



MEMORANDUM

SUBJECT:      Response to Draft Follow-up Audit Report: Progress Made in
              Improving Use of Federal Supply Schedule Orders, but More Action
              Needed

FROM:         Luis A. Luna
              Assistant Administrator

TO:           Carl A. Jannetti
              Director, Contact Audits


         Thank you for the opportunity to submit comments on the draft report entitled,
“Progress Made in Improving Use of Federal Supply Schedule Orders, but More Action
Needed,” dated August 16, 2007. As you note in your draft report, EPA has successfully
implemented 3 of the 4 recommendations made in your September 2003 report. We
concur with your further recommendations in this report, and offer the following
comments:

Recommendation 1 – Provide examples on EPA’s intranet of adequate justifications
for limiting competition.

Response: We concur. OAM will work with its program and Regional customers to
find good examples of justifications for limiting competition, and will post them on
OAM’s intranet website by December 31, 2007.

Recommendation 2 – Emphasize Quality Assessment Plan requirements for
evaluating: The effectiveness of market research, justifications for limiting
competition, development of independent Government cost estimates (IGCEs), and
the use of the Federal Supply Schedule (FSS) order checklist.

Response: We concur, and will address and emphasize these requirements in an
upcoming report on best practices and lessons learned from QAP reviews performed to-
date by OAM. We expect this report to be issued by September 30, 2007.



                                           9

Recommendation 3 – For the order to obtain an intern, ensure the unauthorized
commitment entered into by the program office is ratified.

Response: We concur, and will ratify this unauthorized action by October 31, 2007. We
will also list this action in our upcoming annual report to the Office of the Chief Financial
Officer (OCFO) on FY 2007 contract ratification actions.

Recommendation 4 – Require the Office of Acquisition Management to market the
benefits of online procurement tools such as FedBid.

Response: We concur, and note that training sessions on FedBid have been recently
conducted in Headquarters, several Regions, RTP, and Cincinnati. We will continue to
promote tools such as FedBid and e-Buy within the organization through various other
means, such as a Policy Hot Tip notice (the next one due by the end of October 2007),
and putting an on-line banner on OAM’s intranet home page which promotes such
acquisition tools. We expect to have this banner in place in Headquarters, and discuss its
potential use in the Regions, RTP, and Cincinnati, by December 31, 2007.

         OAM will continue to improve its use of Federal Supply Schedule Orders. We
look forward to receiving your final report. Should you have any questions, please
contact Kerrie O’Hagan, Director, Policy, Training, & Oversight Division in the Office
of Acquisition Management, at (202) 564-4315.

cc: 	Denise Benjamin Sirmons
     John Gherardini
     Joan Wooley
     Kerrie O’Hagan
     John Oliver
     Juan Common




                                             10 

                                                                                Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Director, Office of Acquisition Management
Deputy Director, Office of Acquisition Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of Administration and Resources Management
Audit Followup Coordinator, Office of Acquisition Management
Acting Inspector General




                                           11 

